No. 20-297

In the Supreme Court of the United States
TRANS UNION LLC,
Petitioner,
v.
SERGIO L. RAMIREZ,
Respondent.
CERTIFICATE OF COMPLIANCE
I, Andrew J. Pincus, counsel for Amicus Curiae and a member of the Bar of
this Court, hereby certify that, according to the word-count tool in Microsoft Word,
the Brief of the Chamber of Commerce of the United States of America as Amicus
Curiae in Support of Petitioner consists of 4,139 words, including footnotes and
excluding the sections enumerated by Rule 33.1(d). The Brief therefore complies with
Rule 33.1(g).

/s/ Andrew J. Pincus
Andrew J. Pincus
Mayer Brown LLP
1999 K Street, NW
Washington, D.C. 20006-1101
(202) 263-3000
apincus@mayerbrown.com

